tn

SMMi
IN THE

FILED
MAY 2 3 2021
OFFICE OFTHE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES

KENNETH RAY MARSHALL - PETITIONER
VS.
DEXTER PAYNE - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
U.S. COURT OF APPEALS FOR THE EIGHTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
NAME: Kenneth Ray Marshall ADC# 92968
ADDRESS: P.O. Box 500
CITY STATE ZIP: Grady, AR 71644
PHONE NUMBER: None

received
JUN ' 2021

iSJUsatSE

QUESTIONS PRESENTED
I. Whether the decision of the state court that failed to apply the correct
standard of “reasonableness” to assess trial counsel’s conduct under
Strickland v. Washington, 466 U.S. 668 (1984) is contrary to and/or
involves an unreasonable application of clearly established federal
law. 28 U.S.C., § 2254(d)(1)...................................................................

pages 7 - 9

A. Whether failure of the state court to extend the “prevailing professional
norms" legal principle to state criminal procedure rule implemented
to safeguard constitutional right is contrary to and/or involves an
unreasonable application of clearly established federal law. Williams
v. Taylor, 529 U.S. 369 @ 407 (2000). 28 U.S.C., § 2254(d)(1).........

pages 9-12

II. Whether the decision of the state court to find no violation of Petitioner’s
Sixth Amendment right to speedy trial is contrary to and/or an
unreasonable application of clearly established federal law Coleman v.
Thompson; 501 U.S. 722 (1991). 28 U.S.C., § 2254(d)(1).......................

pages 12-13

A. Whether the failure of the state court to assess trial counsel’s
conduct that resulted in violation of Petitioner’s right to speedy trial
under correct standard of “reasonableness’ (Strickland, supra) is
contrary to and/or involves an unreasonable application of clearly
established federal law. 28 U.S.C., § 2254(d)(1)...............................

pages 13-15

B. Whether the decision of the state court that no speedy trial violation
occurred is an unreasonable determination of the facts in light of the
evidence presented in those proceedings. 28 U.S.C., § 2254(d)(2)....

pages 15-18

III. Whether the decision of the state court that trial counsel’s performance
was not ineffective assistance of counsel is contrary to and/or involves
an unreasonable application of clearly established federal law; and too,
is an unreasonable determination of the facts in light of the evidence
presented in those proceedings. 28 U.S.C., § 2254(d)(1) & (2)...............

page 18

A. Whether the decision of the state court that trial counsel’s acts of
commission and ommission were not “cause" for violation of Petitioner’s
right to speedy trial is contrary to and/or involves an unreasonable
application of clearly established federal law; and is an unreasonable
determination of the facts in light of the evidence presented in those
proceedings. 28 U.S.C., § 2254(d)(1) & (2)........................................

pages 18-23

B. Whether the decision of the state court that Petitioner did not
suffer “prejudice” as the result of trial counsel’s “deficient” performance
resulting in violation of right to speedy trial is contrary to and/or
involves an unreasonable application of clearly established federal
law. 28 U.S.C., § 2254(d)(1).................................................................

pages 23 - 25

C. Whether this Court should accord deference to the findings of
the state court or trial counsel’s conduct. 28 U.S.C., § 2254(d)(1);
Strickland, supra.................................................................................... page 25
1. Whether the findings of the state court that are contrary to
and/or involve an unreasonable application of clearly established
federal law should be accorded deference. 28 U.S.C., § 2254(d)(1);
Williams v. Taylor, supra...............................................................

pages 25 - 26

2. Whether trial counsel’s conduct that was below that of
reasonable competent professional assistance should be
accorded deference. Strickland, supra............................................ pages 27-29
IV. Whether Petitioner was denied full review by the federal courts
below on his constitutional claims hereon. Thompson v. Coleman,
501 U.S. 722 @ 736 (1991)......... ....................................................... ....... pages 29 - 30
A. Whether Petitioner was denied due process and opportunity for
review on the merits hereon by the Circuit Court for reasons of
circumstances beyond his control........................................................

n

pages 31 - 32

LIST OF PARTIES
[

] All parties appear in the caption of the case on the cover page.

[V ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:

Dexter Payne, Director of Arkansas Department of Correction
State of Arkansas, Leslie Rutledge - Attorney General
RELATED CASES

Marshall v. Payne, No. 20-3372; On Petition for Re-Hearing and Rehearing en
banc; U.S. Court of Appeals for the 8th Circuit. (Add. @ A1) denied 3/8/2020
Marshall v. Payne, No. 20-3372; On Application for Certificate of Appealability and
Motion To proceed In Forma Pauperis; U.S. Court of Appeals for the 8th Circuit
(Add. @ A3) denied 1/27/2021
Marshall v. Payne, No. 4:20-cv-00372JM/PSH; Order & Judgment denying and
dismissing Petition for Writ of Habeas Corpus; U.S. District Court for the Eastern
District of Arkansas (Add @ B1-3) dated 10/30/202
Findings and Recommendation of the Magistrate to deny and dismiss Petition for
Writ of Habeas Corpus; U.S. District Court for the Eastern District of Arkansas (Add.
@ B4-11) dated 10/15/20
Marshall v. State, 2020 Ark. 66, 594 S.W.3d 78; affirming denial of petition for post­
conviction relief; Columbia County Circuit Court (Add. @ C1-7) dated 2/20/2020
State v. Marshall, No. 2014-2-5; Order denying petition for post-conviction relief;
Columbia County Circuit Court (Add @ D1-4) dated 11/13/2018
Marshall v. State, 2017 Ark. 347, 532 S.W.3d 563; affirming conviction on direct
appeal; Arkansas Supreme Court; (Add @ C8-11) dated 12/7/2017

iii

Page No.
Questions Presented

i - ii

List of Parties

mi

Related Cases
Table of Contents

IV

Index To Appendices

iv - v

Table of Authorities Cited

vi - VII

TABLE OF CONTENTS
Opinions Below.

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

3

Statement of The Case

4-6

Reasons For Granting The Petition

7-32

Conclusion

32

Proof of Service

33
INDEX OF APPENDICES

- Appendix A: Proceedings of the United States Court of
Appeals for the 8th Circuit; Kenneth Ray
Marshall v. Dexter Payne No. 20-3372
- Motion to File Over Length Petition and Petition for Re-Hearing
en banc 3/8/21...................................................................

A1

- Notice from Clerk, U.S. Court of Appeals for the 8th Circuit
dated 1/27/21....................................................................

iv

A2

Page No.
- Application for Certificate of Appealability and Motion To
Proceed In Forma Pauperis denied 1/27/21...................................

A3.

- Docket sheet; Marshall v. Payne, NO. 20-3372; U.S. Court of
Appeals for the 8th Circuit..............................................................

A4-5

Appendix B: Proceedings of the United States District Court for the
Eastern District of Arkansas; Kenneth Ray Marshall v.
Dexter Payne, NO. 4:20-cv-00372 JM/PSH
- Order and Judgment of the District Court dismissing and denying
relief on Petition For Writ of Habeas Corpus date 10/30/20.........

B1 -3

- Findings and Recommendation of the Magistrate to dismiss
and deny Petition For Writ of Habeas Corpus dated 10/15/20......

B4-11

- Notice of Order Denying Leave To Proceed In Forma Pauperis
dated 12/8/20..................................................................................

B12

Appendix C: Proceedings of the Arkansas Supreme Court: Kenneth
Ray Marshall v. State of Arkansas
- Marshall v. State, 2020 Ark. 66, 594 S.W.3d 78; affirming denial
of Rule 37 Petition for post conviction relief dated 2/20/20.....................

C1 -7

- Marshall v. State, 2017 Ark. 347, 532 S.W.3d 563; affirming
conviction on direct appeal dated 12/7/2017............................................

C8-11

Appendix D: Proceedings in the Columbia County Arkansas Circuit Court;
State v. Marshall No. 2014-2-5
- Order of the trial court denying Rule 37 Petition for Post
Conviction Relief dated 11/13/2018...........................................................
- Rule 28, §§ 1-3 Arkansas Rules of Criminal Procedure (ARCrP).............

D1 -4
D5-11

- Partial docket sheet, State v. Marshall, No. 2014-2-5;
Columbia County Arkansas Circuit Court...................................................

D12- 13

TABLE OF AUTHORITIES CITED
Cases

Page No.

Bell v. Cone, 535 U.S. 685 (2002).............................

8,9

Berry v. Henson, 364 Ark. 26, 216 S.W.3d 93 (2005)

16, 22

Bobby v. Van Hook, 558 U.S. 4 (2009)......................

19

Carnley v. Cochran, 369 U.S. 506 (1962)..................

7, 16, 28

Clancy v. U.S., 365 U.S. 312 (1961)..........................

15, 16

Clark v. State, 274 Ark. 81, 621 S.W.2d 857 (1981)...

17, 22, 25, 28

Coleman v. Thompson, 501 U.S. 722 (1991)............

12, 17, 30

Conley v. State, 2014 Ark. 172, 433 S.W.3d 234......

17

David v. State, 295 Ark.131,748 S.W.2d 117 (1988)....

21

Davis v. State, 349 Ark. 171,889 S.W.2d 764 (1994)....

9, 20

Dickey v. Florida, 398 U.S. 30 (1970)............................

24

Dupree v. State, 316 Ark. 324, 871 S.W.2d 579 (1994).

21

Ford v. Norris, 314 F.3d 849 (8th Cir. 2004)..................

11

Frederick v. State, 2012 Ark.App. 552, 423 S.W.3d 649

22

Graham v. U.S., 559 U.S. 280 (2010)............................

15, 16

Harrison v. Richter, 562 U.S. 86 (2011)..........................

25, 26, 27, 28

Hodges v. U.S., 408 F.2d 543 (8th Cir. 1969)................

24

Jones v. Jerrison, 20 F.3d 849 (8th Cir. 1994)...............

11

Jones v. State, 347 Ark. 455, 655 S.W.3d 402 (2002)....

9, 11, 13, 18, 20,27

Kenley v. Armontrout, 937 F.2d 1298 (8th Cir. 1991).....

12

Knowles v. Mirzayance, 556 U.S. 111 (2009).................

8, 26

Marshall v. State, 2020 Ark. 66, 594 S.W.3d 78.............

14, 16, 21

vi

Cases

Page No.

Miller-el v. Cockrell, 537 U.S. 322 (2003).......................
Nix v. Whiteside, 475 U.S. 157 (1985)...........................
Roe v. Flores-Ortega, 528 U.S. 470 (2000)....................

17, 30
20, 21,27, 28
11, 18,25

State v.Washington, 273 Ark. 82, 617 S.W.2d 3 (1981)..

24

Stephens v. State, 295 Ark. 541,750 S.W.2d 52 (1970)

24

Stranghoener v Black, 720 F.2d 1005 (8th Cir. 1983).

12

Strickland v. Washington, 466 U.S. 668 (1984).......... ...... ..........7, 8, 9, 10, 11, 12, 13, 15,

18,19, 20,21,22,23, 24, 25, 26, 28
U.S. v. Cronic, 466 U.S. 648 (1984)...........................
Walker v. State, 288 Ark. 52, 701 S.W.2d 372 (1986)
White v. Woodall, 572 U.S. 415 (2014)......................
Williams v. Taylor, 529 U.S. 362 (2000).....................

24

17, 22,25,28
24
7, 9, 24, 26

Wright v. West, 505 U.S. 277 (1992)..........................

10

Yarborough v. Alvarado, 541 U.S. 652 (2004)............

26

Statutes And Rules:

Page No.

Title 28 USC., § 2254(d)....

17,25, 28, 30

Title 28 USC., § 2254(d)(1)

7,8,9, 12, 18, 19

Title 28 USC., § 2254(d)(2)

13

Title 28 USC., § 2254(e)(1)

12, 17, 28

Rule 40, FRAP..................

31

Rule 28.1 (k), U.S. Ct. of Appeals for the 8th Cir.

32

Arkansas Rules of Civil Procedure, Rule 28...... ...... 9, 10, 11, 12, 13, 14, 15, 16, 17, 18,

19, 20, 21, 22, 23, 24, 25, 26, 27, 28, 29
Other:

Page No.

United States Const., Sixth Amendment

.... 8, 10, 12,
13, 22,23, 24

Vll

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[ ] reported at.
; or,
[ ] has been designated for publication but is not yet reported; or,
[ y ] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ >/ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix C
to the petition and is
[ ✓ ] reported at 2020 Ark. 66, 594 S.W.3d 78; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Columbia County,
Arkansas Circuit Court appears at Appendix D to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ * ] is unpublished.

1

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
1/27/2021
[

] No petition for rehearing was timely filed in my case.

[ v* ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:3/8/2021 and a copy of the order denying
rehearing appears at Appendix A1
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including_
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was 2/20/2020.
A copy of that decision appears at Appendix C1-7
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including__
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S Const Sixth Amendment: In all criminal prosecutions, the accused shall enjoy the
right to a speedy....trial.... and to have the assistance of counsel for his defense.
28 USC . § 2254(d):(d): An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim28 USC § 2254(d)(1): resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
28 USC § 2254(d)(2):

resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court
proceeding.
28 USC § 2254(e)(1): In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to be correct.
The applicant shall have the burden of rebutting the presumption of correctness by
clear and convincing evidence.
Ark. Rules Crim. P. Rule 28.1(b): Any defendant charged with an offense and
incarcerated in prison in this state pursuant to conviction of another offense shall be
entitled to have the charge dismissed with an absolute bar to prosecution if not brought
to trial within twelve (12) months from the time provided in Rule 28.2, excluding only
such periods of necessary delay as are authorized in Rule 28.3.

3

'

STATEMENT OF THE CASE
Petitioner was first arrested and held to trial on the charges hereon on November
26, 2013. In December 2013, he was transferred to the Arkansas Department of
Correction (ADC) for parole violation while still awaiting trial hereon. He remained
incarcerated in the ADC until trial, conviction and sentencing hereon on June 17, 2015.
A period of 568 days between date of arrest and his trial. Cf: Marshall v. State, 2020
Ark. 66, 594 S.W.3d 78 (Add @ C1-7) (Denying Rule 37 Petition For Post-Conviction
Relief.) On conviction - after trial by jury in the Columbia County Arkansas Circuit Court
- on charges of commercial burglary, aggravated residential burglary, and being a
habitual offender, Petitioner was sentenced to a term of life and 360 months. The
conviction and sentence was affirmed on direct appeal to the Arkansas Supreme Court
in an opinion delivered December 12, 2017. Cf: Marshall v. State, 2017 Ark. 247, 532 S.
W.3d 563 (Add @ C8-11).
On February 9, 2018, Petitioner filed timely petition for post-conviction relief
under Rule 37, Arkansas Rules of Criminal Procedure (ARCrP), raising his claim hereon
of denial of his Sixth Amendment right to the effective assistance of counsel at trial by
reason of conduct that caused denial of his right to speedy trial. Petitioner identified
multiple acts of commission and omission on the part of trial counsel in violation of Rule
28, ARCrP (Add @ D5-11) as “cause” for violation of right to speedy trial; and as
“prejudice” Petitioner argued that he was held to trial, convicted, and sentenced to
imprisonment after the time for speedy trial had elapsed under Arkansas law. (Add. @
D5).
Petitioner had raised the claim of violation of his right to speedy trial prior to trial
by pro se Motion To Dismiss For Violation of Rule 28 ARCrP; and a hearing was held
4

thereon on 1/14/2015 where that motion was denied by the trial court. (Add D @ 12-13).
A previous pro se Motion To Substitute Counsel that also raised the claim was also
denied by the trial court at a hearing held on December 4, 2014. Id.
The State’s response to Petitioner’s Rule 37 petition addressed none of the
specific acts identified therein and attributed trial counsel’s conduct to trial tactics and
strategy; and the trial court in denying relief on the petition - in a decision filed
November 13, 2018 - as well, failed to address the specific acts of “deficient”
performance by trial counsel identified by Petitioner; also attributing counsel’s conduct
to trial strategy in finding no speedy trial violation. (Add. @ D1-4).
Petitioner filed timely notice of appeal of the trial court’s denial of his Rule 37
petition to the Arkansas Supreme Court, raising as error claims of deficiency in the trial
court’s order denying relief on his petition; and too, re-stating his claim of denial of
effective assistance of counsel by trial counsel’s failure to safeguard his right to speedy
trial. Petitioner again identified those specific acts of commission and omission by trial
counsel in violation of Rule 28, ARCrP, as “cause” for violation of his right to speedy
trial; and as “prejudice,” his being held to trial, convicted, and sentenced after time for
speedy trial had elapsed in this case. In an opinion issued February 20, 2020 that court
denied relief on the petition, affirming the trial court by pointing to three (3) periods of
delay - that it attributed to Petitioner - amounting to 263 days putting trial at 305 days
after date of arrest to bring it within the 12 months period required by Rule"28.1 (Add. @
D5). Cf: Marshall v. State (Add. @ C1-7).
Petitioner then timely filed on June 10, 2020 his federal petition for writ of habeas
corpus in the United States District court for the Eastern District of Arkansas on
grounds: 1) The state court’s finding that trial counsel’s conduct that deprived him of
5

speedy trial was not “cause” for ineffective assistance of counsel was contrary to and/or
involved an unreasonable application of clearly established federal law; 2) The state
court’s decision to deny relief was based on an unreasonable determination of the facts
base on the evidence before that court; and 3) Its conclusion that Petitioner was not
“prejudiced” by trial counsel’s conduct in violation of Rule 28, ARCrP., was contrary to
and/or involved an unreasonable application of clearly established federal law. The
District Court’s Order denying relief and dismissing his petition (Add. @ B1-2), adopted
in its entirety the Magistrate’s Findings and Recommendations (Add. @ B4-11), that
rested solely on the decision of the state court to deny his Rule 37 petition. (Add. @ C17).
Because the District court in denying relief had also denied certificate of
appealability (Add. @ B12), Petitioner’s initial appeal to the Court of Appeals for the
Eighth Circuit was heard on Application for Certificate of Appealability and Motion To
Proceed In Forma Pauperis which was denied on 1/27/21 (Add. @ A3). Because of the
then existence of multiple circumstances beyond his control that influenced his choice
Petitioner filed with his Petition For Rehearing and Re-Flearing en banc a Request to
File an Over-length Petition that was denied by the Eighth Circuit, along with the Petition
For Re-Flearing, on 3/8/2021. (Add. @ A1). This petition follows.

6

REASONS FOR GRANTING THE PETITION
Petitioner submits that the petition hereon presents compelling reasons for this
Court’s consideration and resolution including: conflict of the decision of the courts
below with relevant decisions of this Court as to: the necessity of consideration of
“prevailing professional norms” in assessing the “reasonableness” of trial counsel’s
representation under Strickland v. Washington, 466 U.S. 668 @ 688-89; the application
of the “prevailing professional norms” to the State rule of criminal procedure governing
speedy trial under Williams v. Taylor, 529 U.S. 362 @ 407 (2000); and the State court
supplying an essential element of fact where the record is silent in order to dispose of
the constitutional question presented under Carnley v. Cochran, 369 U.S. 506 @516
(1962). Too, because the federal courts’ review of these issues has been based solely
on the Findings and Recommendations of the Magistrate that adopted the conclusions
of the State court; conclusions that besides being contrary to and/or an unreasonable
application of clearly established federal law, too, they lack independent and adequate
State grounds to support the judgment as it is based on an unreasonable determination
of the facts in light of the evidence presented to that court, there has been no review on
the merits of Petitioner’s claims. And, Petitioner contends, he was as well denied review
on the merits by the Court of Appeals below by reason of the co-occurrence of exigent
circumstances beyond his control that effected to deny meaningful review of his claims
by that Court.
I. Failure to apply appropriate standard of “reasonableness” to assess trial
counsel’s conduct.
Petitioner submits that the decision of the State court (and the courts below) with
regard to his claim of ineffective assistance of counsel at trial is contrary to and/or

7

involves an unreasonable application of clearly established federal law. Title 28 USC §
2254(d)(1). This is so, first, because although that court correctly identified the
governing legal principle to determine “reasonableness” it failed to apply it- in pertinent
part - to the facts of Petitioner’s case; and too, it was applied contrary to clearly
established federal law. Cf: Bell v. Cone, 535 U.S. 685 @ 694.
In Strickland, supra., the well established Federal precedence governing this
case, the United States Supreme Court held - in regard to a claim of denial of the Sixth
Amendment right to effective assistance of counsel - that a defendant must show that
counsel’s representation “fell below an objective standard of reasonableness.” 466 U.S.
@ 687. And although, Petitioner notes, the state court in this case pointed to this test
(Add. @ C4), its application was contrary to clearly established federal law because it
failed to consider the “prevailing professional norms" legal principle as part of that test
as imposed by Strickland: “The proper measure of attorney performance remains
reasonableness under prevailing professional norms.” Id. @ 688.
Petitioner submits that the inclusion of “prevailing professional norms” is a
condition precedent to measuring the “objective standard of reasonableness” of trial
counsel’s conduct:
“....The court must then determine whether, in light of all the
circumstances, the identified acts or omissions were outside the
wide range of professionally competent assistance. In making that
determination, the court should keep in mind that counsel's
function, as elaborated in prevailing professional norms...."
Strickland, 466 U.S. @ 690
See: Knowles v. Mirzayance, 556 U.S. 111 @ 122 (2009)(Court failed to apply specific
rule that has been squarely established by the Supreme Court.)

8

Because the state court, in this case, failed to apply the “prevailing professional
norms” legal principle to measure trial counsel’s conduct by an “objective standard of
reasonableness” as Strickland (Id.) mandates, its consideration of trial counsel’s
conduct, identified by Petitioner, to determine the effectiveness of his representation, is
not only erroneous but contrary to clearly established federal Law. Cf: Bell, 535 U.S. @
694 (Contrary clause of 28 USC, § 2254(d)(1) implicated if state court applies a rule
differently from governing law.)
A. Failure to extend “prevailing professional norms” standard to
State criminal procedure guidelines.
Second, Petitioner observes this Court has established that a state court
decision also involves an unreasonable application of its precedence if it unreasonably
extends a legal principle to a new context where it should not apply or unreasonably
refused to extend that principle to a new context where it should apply. Williams v.
Taylor, 529 U.S. 362 @ 407.
Petitioner notes that the State court has established with regard to .The
constitutional right under the Sixth Amendment to speedy trial - which violation of that
right is the basis of the claim for ineffective assistance of counsel in this case - that:
“A speedy trial is a trial conducted according to fixed rules,
regulations, and proceedings of law, free from vexatious,
capricious, or oppressive delays manufactured by ministers of
justice."

Jones v. State, supra., 347 Ark. 455 @
463, 655 S.W.3d 402 @ 407 (2002)
And, Petitioner contends, those, “fixed rules of proceedings of law” (Id.) are embodied
in Rule 28, ARCrP, which was implemented to safeguard this constitutional right in the
State of Arkansas. See e.g. Davis v. State, 349 Ark. 171, 889 S.W.2d 769 (1994). And
as such, Rule 28 provides the “prevailing professional norm” by which to measure trial
9

counsel’s conduct under Strickland’s “objective standard of reasonableness” test. Id. @

688-89.
Petitioner submits that it was incumbent on the state court to consider his claims
in the context in which they were presented. And that court, though it correctly pointed
to the “objective standard of reasonableness” test, it completely avoided his claim that
trial counsel’s conduct violated the “fixed rules” of Rule 28, ARCrP, which in this case,
he contends, is the “prevailing professional norm” by which to measure counsel’s
conduct under that test. Petitioner observes that this Court in Strickland noted several
“prevailing professional norms,” but specifically refused to limit them for this reason. Id.
@ p. 688. Cf: Wright v. West, 505 U.S. @ 308-309 (A squarely established general rule
of application designed for the specific purpose for evaluating a myriad of factual
contexts.)
Petitioner’s claim hereon

as in the state court

is that trial counsel’s

performance was “deficient” for reasons of commission and omission in obtaining
delays and/or acquiescing to the grant of delays in violation of the “fixed rules of
proceedings of law” Under Rule 28; and so failing to safeguard his right to speedy trial,
and which resulted in the violation of that constitutional right. In the state court, as
hereon, Petitioner presented his claim of ineffective assistance of counsel based on the
violation of his constitutional right to speedy trial, challenging time to trial based on: the
validity of excluded periods under Rule 28 (Add. @ 5-11); the legal justification for
excluded periods under Rule 28; trial counsel’s act of commission in obtaining a delay
where there was no legal justification or “good cause” shown under Rule 28.1(b), (Add.
@ D-5); his acts of omission in acquiescing to the State obtaining and/or the trial court’s
grant of delays where there was no legal justification and/or “good cause” shown in

10

violation of Rule 28.3 (Add. @ D10-11); and that trial counsel’s conduct specifically
failed to comply with the “fixed rules” established by Rule 28. (Jones v. State, supra.).
And as such, his conduct was “deficient’ and “cause” for violation of Petitioner’s right to
speedy trial. Strickland, supra.
That the state court never applied the legal principle “elaborated in prevailing
f

professional norms” - in this case Rule 28 - is demonstrated by the fact that although
the very delays it found “excludable” in order to find no speedy trial violation (The 2/6/14
delay while Petitioner was “incarcerated and the 10/2/14 delay obtained by the State for
plea negotiation) were specifically identified by Petitioner as violating the provisions of
Rule 28, yet the court never addressed their violation of the rule. Add. @ C1-7.
Petitioner contends that assessing counsel’s performance in context of the
“prevailing professional norms” is an integral part of determining the reasonableness of
that conduct. Cf: Roe v. Flores-Ortega, 528 U.S. 470 @ 489 (2000), Souter, Stevens,
and Ginsberg, JJ., concurring in part and dissenting in part (The prevailing professional
norms are Strickland’s touchstone of reasonableness.); Strickland, supra., @ 690 (The
question is whether an attorney’s representation amounted to incompetence under
“prevailing professional norms,” not whether it deviated from best practices or most
common custom.).
In addition, Petitioner notes, he presented the same facts and legal theories in
state court as before this Court and the court below (Jones v. Jerrison, 20 F.3d 849 @
852 (8th Cir. 1994); raising and pointing to specific federal constitutional rights that were
denied. Cf: Ford v. Norris, 364 F.3d 916 @ 921 (8th Cir. 2004). That those advanced in
the state court are consistent with the facts and legal theories advanced hereon: That
the “fixed rules” of Rule 28 ARCrP., is the objective standard of reasonableness “by

11

which to guide and measure trial counsel’s conduct”; and as such is the “prevailing
professional norm.” Strickland, supra., @ 688-89. Cf: Kenley v. Armontrout, 937 F.2d
1298 @ 1302-03 (8th Cir. 1991) (There is a factual commonality.); See: Stranghoener v
Black, 720 F.2d 1005 @ 1007-08 (8th Cir. 1983) (Federal claim should not present
significant additional facts such that the claim was not fairly presented to the state
courts.).

The failure of the state court to apply the specific rule to measure trial

counsel’s conduct under “an objective standard of reasonableness under prevailing
professional norms” - in this case Rule 28, ARCrP resulted in a decision, in Petitioner’s
case, that is not only erroneous but contrary to and/or involves an unreasonable
application of clearly established federal law.
II. Failure to accord appropriate review to Petitioner’s speedy trial claim
Although a determination made by the State court in this case is presumed to be
correct; this is a rebuttable presumption that may be overcome by Petitioner by clear
and convincing evidence. 28 USC § 2254(e)(1). And federal courts must ascertain for
themselves if a petitioner is in custody pursuant to a state court judgment that rests on
independent and adequate grounds. Coleman v. Thompson, 501 U.S. 722 @ 736

(1991).
Flere, Petitioner contends that the state court was able to dismiss his claim of
violation of his Sixth Amendment right to the effective assistance of counsel by denying
his claim of violation of his right to speedy trial (which is the basis of the ineffective
assistance of counsel claim) in part by arbitrarily legitimizing the acts of commission and
omission committed by trial counsel and identified by Appellant as “deficient”
performance resulting in denial of speedy trial and “cause”.(Add. @ C-5); doing so not
only contrary to and/or based on an unreasonable application of clearly established

12

federal law. Strickland, supra. 28 USC § 2254(d)(1), but to, by resting its conclusion that
there was no speedy trial violation or an unreasonable determination of the facts in light
of the evidence before the court. USC § 2254(d)(2).
A. Failure to correctly assess trial counsel’s conduct resulting in
violation of speedy trial
Strickland (supra.) established that “[w]hen a convicted defendant complains of
the ineffective assistance of counsel, the defendant must show that counsel’s
representation fell below an objective standard of reasonableness under prevailing
professional norms. “466 U.S. @ 687-88. As Appellant contended in arguments above,
Rule 28, ARCrP - in place to safeguard the constitutional right under the Sixth
Amendment to speedy trial in Arkansas - provides this “objective standard of
reasonableness” required by Strickland (Id.); and its “fixed rules” ( Jones, supra., 347
Ark. @ 463, 65 S.W.3d @ 407) are the “prevailing professional norms” by which to
measure the “reasonableness” of trial counsel’s performance. Strickland @ p. 690:
“A convicted defendant making a claim of ineffective assistance
must identify the acts or omissions of counsel that are alleged not
to have been the result of reasonable professional judgment. The
court must then determine whether, in light of all the circumstances,
the identified acts or omissions were outside the wide range of
professionally competent assistance. In making that determination,
the court should keep in mind that counsel's function, as elaborated
in prevailing professional norms...."
Because the State court failed to apply this - or any - objective standard of
reasonableness by which to measure trial counsel’s performance; but rather, based its
judgment on its own speculative conclusions, its decision is an unreasonable
application of clearly established federal law. Id.
In Petitioner’s case, a period of 568 days elapsed between date of his arrest on
the charges hereon and date of trial and conviction thereon. A period of 203 days in

13

excess of that permitted by law. Cf: Rule 28.1, Add. @ D5-78.; Marshall, Add. @ C1-7.
Petitioner contends that only 68 days of this period was validly excludable under Rule
28 to toll speedy trial: A period of 67 days for his mental fitness exam (which the state
court also found “excludable” to toll speedy trial and which Petitioner never contested);
and a period of one (1) day from date of filing of his pro se Motion To Dismiss For
Violation of Speedy Trial on 1/13/15 until the next day 1/14/15 when that motion was
heard and denied in the trial court.
Although, Petitioner pointed to multiple violations of Rule 28 in the delays
obtained prior to trial and “identified” acts or omissions of counsel that are alleged not to
have been the result of reasonable professional judgment that resulted to deny him
speedy trial, the state court - besides the 67 days for mental fitness exam - relied on
two other delays (both of which were “identified” by Petitioner) to find no speedy trial
violations. The court noted a 2/6/14 to 6/19/14 delay of 133 days obtained by trial
counsel; and a 10/2/14 to 12/4/14 delay of 63 days for plea negotiations (which it
attributed to Petitioner), totaling with the 67 days for mental fitness examination to 263
days that it excluded from the 568 days for a period of 305 days to trial to find no
speedy trial violation. Marshall, Add. @ C5.
1

Petitioner also “identified” the 2/6/14 to 6/19/14 delay obtained by trial counsel as

an act of “deficient” performance. The delay was obtained by trial counsel so that
Petitioner - who at the time was “incarcerated” in the ADC awaiting trial - could attend a
rehab program provided by the ADC. Petitioner contends this delay directly violated the
letter and intent of Rule 28.1(b) (Add. @ D5)which mandates trial for defendants while
“incarcerated” and such time is not excludable. Because trial counsel’s conduct in
obtaining the delay violated the “fixed rules’ of legal proceeding under Rule 28.1, the
14

“prevailing professional norm” (Strickland, supra.) there was no “legal justification” or
“good cause” shown for the delay. Cf: Rule 28.3(f) (Periods of delay must be for good
cause.) (Add. @ D11); and as such it fell below the “objective standard of
reasonableness” for professionally competent assistance.
B. Failure to determine whether state court’s decision rests on
adequate and independent state grounds
In addition to dismissing his claim of ineffective assistance of counsel by finding
no speedy trial violation based on a decision that is contrary to and/or an unreasonable
application of clearly established federal law, the State court decision is also based on
an unreasonable determination of the facts based on the evidence before that court.
This is so because that court relied on an exercise in speculation to supply an essential
element of fact where the record is silent, in order to find that no speedy trial violation
occurred. Cf: Clancy v. U.S., 365 U.S. 312 @315 (1961) (Where the record is silent the
court should deal with the record as it finds it.); Graham County Soil and Water
Conservation Dist. v. U.S. ex rel. Wilson, 559 U.S. 280 n.6 (2010)( Where record is
silent resulting conclusion must necessarily be speculation.)
In this case, the state court counted as an “excluded” period, in order to find no
speedy trial violation, the delay from 10/2/14 to 12/4/14 - a period of 63 days - for plea
negotiation. Petitioner had specifically “identified” this delay as an act of omission by
trial counsel because he contended that the delay was obtained by the State, and as
such, was not permitted under Rule 28.3(d) as a period validly excludable by the State.
(Add. @ D10-11) Trial counsel, Petitioner contended, was “deficient” for acquiescing in
the grant of this delay where there was no “good cause” shown or legal justification
under Rule 28.3(d). In addition, the record - the trial docket memorializing the delay - is

15

silent as to an essential fact: who obtained the delay. (Add.. @ D10-11). Despite this
deficiency the state court attributed the delay to Petitioner in order to find no speedy
trial violation. Marshall, Add. @ C5.
Rule 28.3 provides that all “excluded” periods that toll speedy trial “shall” be set
forth in a written order or docket entry. (Add. @ D10). And with regard to this provision
the state court has established: “Notwithstanding good cause, the record must properly
explicate the rationale for speedy trial to be tolled.” Berry v. Henry, 364 Ark. 26, 216 S.
W.3d 93 (2005).
Despite this glaring deficiency in the record as to an essential element of fact who obtained the 10/2/14 delay - the state court chose to indulge in speculation where
the record is silent (Graham, supra.) in order to make a determination of fact (Cf:
Clancy v. U.S., supra.) (Where record is silent court should deal with record as it finds
it), in contravention of the established precedence of this Court in order to deny
Appellant’s constitutional claims. Cf: Carnley v. Cochran, 369 U.S. 506 @ 516(1962)
(Supreme Court precedent requires that any doubts arising inevitably from a silent
record be resolved in favor of defendant.).
And although Rule 28.3 provides that though such periods of delay shall be set
forth by the trial court in a written order or docket entry it permits that, “it shall not be
necessary for the court to make the determination until the defendant has moved to
enforce his right to speedy trial pursuant to Rule 28....” (Add. @ D10). In this case
though the trial court had on two (2) occasions the opportunity to “make the
determination” as to this deficiency in the record and failed to do so: First, at a hearing
held on 12/4/14 where Appellant refused the plea offer (Add. @ C5); and again at the
1/14/15 hearing in the trial court when Petitioner “moved to enforce his right to speedy

16

trial pursuant to Rule 28“ (Rule 28.3, supra.) and where he had specifically “identified”
this delay for these reasons as “deficient” performance by trial counsel and “cause” for
violation of his right to speedy trial. (Add. @ D12). Further lending credence to
Appellant’s contention that the State obtained this delay.
And too, to counter the State court’s finding that trial counsel was not ineffective
for not having filed what would have been a “meritless” motion to dismiss for violation of
speedy trial, because of the defect in the docket entry such a motion would have been
“meritorious” as the 63 days excluded by this delay when added to the 305 days
conceded in bringing Petitioner to trial would have exceeded the 12 months permitted
for trial under the Rule. Rule 28.1; Cf: Conley v. State, 2014 Ark. 172, 433 S.W.3d 234.;
Walker v. State, 282 Ark. 52, 701 S.W.2d 372 (1986); Clark v. State, 274 Ark. 81, 621
S.W.2d 857 (1981). Based on these facts Petitioner submits that it is clearly evident the
decision of the State court does not rest on independent and adequate state grounds
(Coleman v. Thompson, supra), as it is factually apparent that a clear violation of his
constitutional right to speedy trial occurred, and that he has not been afforded a full and
fair review of this claim.

' '

Petitioner submits that trial counsel’s conduct in this instance was deficient; first,
for acquiescing in the grant of continuance to the State where no “good cause” or legal
justification existed. Rule 28.3 (Not making a contemporaneous objection). And too, for
failing to make what would have been a meritorious motion to dismiss.
Section 2254(d) and (e)(1) requires federal habeas courts to extend deference to
the factual findings of state courts; but deference does not imply abandonment or
abdication of judicial review. Miller-el v. Cockrell, 537 U.S. 322 @ 340 (2003). Federal
habeas remains available when, as here, the state court’s decision is contrary to and/or

17

involves an unreasonable application of clearly established federal law, and too, is
based on an unreasonable determination of the facts based on the evidence before that
court.
III. Failure to determine that trial counsel’s performance was below
that of a reasonable competent professional
Petitioner submits that because the state court in its “objective standard of
reasonableness” assessment of trial counsel’s conduct, first, failed to consider counsel’
s “functions as elaborated in prevailing professional norms” (Strickland, supra., 466 U.S.
@ 690), Strickland’s touchstone of reasonableness (Roe v. Flores-Ortega, 528 U.S. @
488); and too, failed to determine the “reasonableness” of acts committed by trial
counsel and identified by Appellant as “deficient” under that “touchstone of
reasonableness” (Id.) established by the “fixed rules” (Jones, supra., 347 Ark. @ 463,
65 S.W.3d @ 407) of Rule 28, ARCrP.; and as well based its judgment on an
unreasonable determination of the facts in light of the evidence before that court
(substituting speculation where the record is silent), no determination was ever made as
to material facts that establish that trial counsel’s performance was “deficient” and
below that of a reasonable competent professional under Strickland, supra.
A. Failure to determine “cause” under the correct standard of
“reasonableness”
Petitioner submits that the decision of the State court is not only contrary to
and/or involves an unreasonable application of clearly established federal law (§
2254(d)(1)), but too, an unreasonable determination of the facts in light of the evidence
before that court (USC § 2254(d)(2)), as it failed to determine:
1.

The trial court failed to determine the “reasonableness” of trial counsel’s conduct

as required by Strickland supra.

18

Although that court did acknowledge that trial counsel’s performance was
governed by Strickland (Add. @ C4) it never alluded to or made effort to consider the
acts identified as “deficient” by Petitioner under any standard of “reasonableness” as
Strickland requires:
“the court must then determine whether in light of all the
circumstances, the identified acts or omissions were outside the
wide range of professionally competent assistance.”

@690
Because that court failed to do so and its findings as demonstrated herein are
erroneous, its decision for this reason is contrary to and/or an “unreasonable application
of clearly established federal law. § 2254(d)(1).
2.

Whether Rule 28, ARCrP, established a “prevailing professional norm" that

served to provide an “objective" guide to determine the reasonableness of trial counsel’
s conduct." Strickland @ p. 688.
Petitioner contends that under Strickland’s standard of reasonableness: “The
proper measure of an attorney’s performance remains simply reasonableness under
prevailing professional norms.” (Id.); and this standard requires for its consideration a
“prevailing professional norm” to guide that determination. As the Court in Strickland
noted,

“[t]he question

is whether an

attorney’s

representation

amounted

to

incompetence under ‘prevailing professional norms’ not whether it deviated from best
practice or most common custom. Id. @ 690. Petitioner contends that in this case the
“prevailing professional norm” is Rule 28, ARCrP., which not only guides, but because it
is the law, “inexorably commands” (Bobby v. Van Hook, 558 U.S. 4 @ 7 (2009) counsel’
s compliance, as it is in place to safeguard the constitutional right to speedy trial.

19

Arkansas has established that “(a) speedy trial is a trial conducted according to
fixed rules, regulations and proceedings of law, free from vexatious, capricious, or
oppressive delays manufactured by ministers of justice.” (Jones, supra.,). Petitioner
contends that the provisions of Rule 28, ARCrP., with its purpose to safeguard the Sixth
Amendment right to speedy trial, are sacrosanct. See e.g., Davis v. State, supra.
(Arkansas Rules of Criminal Procedure, Rule 28 provides the enforcement for the
constitutional right to speedy trial.). And as such, he submits, the Rule establishes the
“prevailing professional norm” that serves as a guide to determine the “objective
standard of reasonableness” of trial counsel’s conduct in this case. And the failure to
impose that “prevailing professional norm” is contrary to and/or an unreasonable
application of clearly established federal law.
3.

Whether the violation of the “fixed rules’ (Jones v. State, supra.) established by

Rule 28 would amount to “reasonable professional conduct” under a Strickland analysis.
Petitioner here

contends that although

Strickland

recognized

counsel’s

“overarching duty to advocate the defendant’s cause (466 U.S. @ p. 688); that duty is
limited to legitimate, lawful conduct. Nix v. Whiteside, supra., 475 U.S. 157 @ 166
(1985). With regard to the “prevailing professional norms,” the Court noted, “[tjhese
standards confirm that the legal profession has accepted that an attorney’s ethical duty
to advance the interests of his client is limited by an equally solemn duty to comply with
the law and standards of professional conduct.” Id. @ p. 168.
Petitioner contends that competent attorney would not violate the “fixed rules”
established by Rule 28, which is the law, and to do so cannot be considered reasonable
professional conduct under Strickland.

20

4.

Whether trial counsel’s conduct in this case in obtaining the 2/6/14 to 6/19/14

delay amounting to 133 days for Petitioner to attend an in-unit rehab program provided
by the ADC while he was already “incarcerated” in the ADC violated the clear language
and intent of Rule 28.1(b) ARCrP - and so, the law. Nix v. Whiteside, supra.
Petitioner here contends that the very intent of Rule 28.1(b) is to provide for
trial of a criminal defendant “while incarcerated.” Cf: Add. @ D5; See: Dupree v. State,
316 Ark. 324, 871 S.W.2d 570 (1994). Because he was already “incarcerated” in the
ADC awaiting disposition of the charges hereon, there was no “legal justification” or
“good cause” shown to toll speedy trial for reason that directly violated the “fixed rules”
under Rule 28. Cf: David v. State, 295 Ark. 131, 748 S.W.2d 117 (1988) (There must be
good cause shown for grant of continuance.).
And too, counsel’s actions in obtaining this delay was “deficient” and not those of
a “reasonably competent attorney” and cannot be deemed a “strategic choice” because
a “thorough investigation of the law” would have found it violated the “incarcerated”
provision of Rule 28.1(b) (Add. @ D5) (Strickland, 466 U.S. @ 690); and so outside the
“wide range of professionally competent assistance. Id.
5.

Whether trial counsel’s acquiescence to the 10/2/14 to 12/4/14 delay amounting

to 63 days obtained by the State for plea negotiations - but attributed to Petitioner by
the Arkansas Supreme Court (Marshall, Add. @ C5); and his failure to safeguard
Petitioner’s speedy trial right was “deficient” performance.
Petitioner submits that trial counsel’s conduct in this instance was “deficient” for
multiple reasons. First, Rule 28.3(d) provides for the valid “excludable” periods that may
be obtained by the prosecution - and a delay for plea negotiations is not allowed. (Add.
@ D10-11). Counsel’s acquiescence to and failure to make a contemporaneous

21

objection to the grant of this delay for this reason was deficient. Cf: Frederick v. State
2012 Ark.App. 552, 423 S.W.3d 649. And then too, Rule 28.3 mandates that “excluded
period” “shall” be set forth in a written order or docket entry. (Add. @ D10). The record
here - the trial docket (Add. @ D12) - is silent as to this essential element of fact: Who
obtained this delay. Cf: Berry v. Henry, supra. (The record must properly explicate the
rationale for speedy trial to be tolled.). And as well, when given the opportunity on two
(2) separate occasions - one (1) at which Appellant had raised his speedy trial claim
and specifically pointed to this delay as violation of Rule 28.3 - the trial court although
permitted by Rule 28.3, failed to correct this omission. (Add. @ D10).
Petitioner notes in addition that even by itself this delay is important, because, as
he noted, had the 63 days excluded by this continuance been disallowed it would have
overextended the period for speedy trial by 3 days. Because trial counsel failed to make
what would have been an otherwise “meritorious” motion to dismiss for violation of
speedy trial his performance failed below that of a reasonable, competent attorney.
Strickland, supra. Cf. Walker v. State, supra., 288 Ark. @ 56, 701 S.W.2d 377 (1986):
“Had the dismissal motion been made, it would have been error not
to have granted it. We thus hold the failure to make the dismissal
motion was ineffective assistance of counsel, the defendant
suffered prejudice from it, and we have no alternative but to reverse
the conviction and dismiss the case. Clark v. State, 274 Ark. 81,

621 S.W.2d 857 (1981).”
6.

Whether trial counsel’s acts of commission and omission with regard to the

delays that resulted in the speedy trial violation in Petitioner’s case, were “cause” for
violation of his right under the Sixth Amendment to the effective assistance of counsel.
In order to establish “cause” to show that counsel was ineffective a defendant
must show that counsel’s representation fell below “an objective standard of

22

reasonableness under prevailing professional norms.” Strickland, supra. (Judicial
scrutiny of counsel’s performance must be highly deferential....[A] judge must indulge a
strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is the defendant must overcome the presumption that
under the circumstances, the challenged action “might be considered sound trial
strategy.) Id. @ 689. Petitioner contends that he has demonstrated hereon, as well in
the state court and court below, that trial counsel’s acts of commission and omission
violated the “objective standard of reasonableness” established by Rule 28, ARCrP; and
so, did not comport with the “prevailing professional norm” of legal conduct required by
Strickland. And that those acts of commission and omission were not only “deficient”
and not those of competent professional assistance they resulted to deny Petitioner
constitutional right to speedy trial.
B. Failure to conclude that trial counsel’s deficient performance
“prejudiced” Petitioner
To establish “prejudice” a defendant must show that there is a reasonable
probability that but for counsel’s unprofessional errors the result of the proceedings
would have been different. Strickland, 466 U.S. @ 694. Petitioner here submits that as
the result of trial counsel’s “deficient” performance he was held to trial, convicted,
judgment entered, and he was sentenced after the time for speedy trial had elapsed in
his case.
Here, Petitioner submits that because the state court failed to properly apply the
applicable standard of review to his claim of denial of constitutional right under the Sixth
Amendment to the effective assistance of counsel at trial; and further failed to apply the
applicable standard of review to the consideration of his claim of denial of his Sixth

23

Amendment right to speedy trial; and in addition, based its judgment on an
unreasonable determination of the facts based on the evidence before that court, its
decision to deny relief on those claims is clearly an unreasonable application of
Supreme Court precedent. Cf: White v. Woodall, 572 U.S. 415 @ 425 (2014);Williams
/

v. Taylor, supra., 529 U.S. @ 407 (2000).
In Strickland, this Court held that where trial counsel’s deficient performance
resulted to deprive a defendant of a substantive or procedural right to which he is
entitled under law prejudice is presumed. Id. @ 692; Williams v. Taylor, 529 U.S. @
393. In this case, trial counsel’s “deficient” performance deprived Petitioner of his
constitutional right to a speedy trial; and in such case, an inquiry into fundamental
unfairness is unnecessary. Id. As this Court noted, “[prejudice in these circumstances
is so likely that a case-by-case inquiry into prejudice is not worth the cost. U.S. v.
Cronic, 466 U.S. 648 @ 658 (1984). And as it noted in Strickland; “Moreover, such
circumstances involved impairment of the Sixth Amendment right that are easy to
identify and for that reason and because the prosecution is directly responsible easy for
the government to prevent. Id. @ 692. Cf: Stephens v. State, 295 Ark. 541, 750 S.W.2d
52, citing Dickey v. Florida, 398 U.S. 30 (1970) (the Supreme Court has held that the
right to a prompt inquiry into criminal charges is fundamental and it is the duty of the
charging authorities to provide a prompt trial.). Cf: Hodges v. U.S., 408 F.2d 543 (8th
Cir. 1969); See e.g., State v.Washington, 273 Ark. 82, 617 S.W.2d 3 (1981) (Primary
burden is on the State to assure cases are brought to trial.).
And consistent with Strickland, the Arkansas Supreme Court has established that
where ineffective assistance of counsel caused the denial of a defendant’s right to

24

speedy trial the defendant suffered prejudice. Rule 28, ARCrP.; Walker, supra.; Clark
supra.
C. Lack of reasonable argument or theory to support according
“deference” to the findings of the trial court or trial counsel’s
conduct
This Court has held that with the addition to the requirement under title 28 USC,
§ 2254(d) to show that the State court’s application of Strickland, supra, was
unreasonable to that case already “highly deferential” review of trial counsel’s conduct,
requires that a habeas petitioner show not only no reasonable arguments or theories
could have supported the State court’s decision, but too, that it is not possible that fair
minded jurists could disagree that those arguments or theories are inconsistent with the
holdings of a prior decision of this Court. Harrison v. Richter, 562 U.S. 86 @ 101-02

(2018).
1. Deference is not due because of failure to apply proper standard of
“reasonableness” and/or to extend ruling legal principle to state rule
of criminal procedure.
Because the State court in this case made no effort at all to provide any
“arguments or theories” to support its decision, this Court is left to determine what - if
any - “could have supported (its) decision.” Id. Petitioner submits that this task would
escape even the fairest minded jurists, as there can be no reasonable argument or
theory to support the failure to apply this Court’s

mandatory standard

of

“reasonableness” to an assessment of trial counsel’s conduct under Strickland. And the
failure to include in such an assessment the “touchstone of reasonableness” - “the
prevailing professional norms” (Roe v. Flores-Ortega, supra.) must lead to the
conclusion that the State court’s decision was based on “best practices or most
common custom” which this Court refuted n Strickland (466 U.S. @ 690).
25

The State court never advanced any arguments or theories to condone trial
counsel’s violation of Rule 28, not even trial strategy. And Petitioner contends that even
this argument or theory is not available as even a reasonable investigation or
knowledge of the State rules of criminal procedure would avail counsel of those
guidelines. Strickland, @ 466 U.S. 690-91. And given the necessity of inclusion of “the
prevailing professional norms” in the consideration of the “reasonableness” of trial
counsel’s conduct, it is difficult to see how fair minded jurists could disagree that the
failure to include this standard in that assessment is fatal to the State court’s decision.
Yarborough v. Alvarado, 539 U.S. 652 @ 664 (2004); Cf: Knowles v. Mirzayance, 556
U.S. @112 (Court failed to apply specific rule that has been squarely established by the
Supreme Court.)
And as Rule 28, ARCrP embodies the “fixed rules of proceedings of law” (Jones
v. State, supra.) implemented to safeguard the constitutional right to speedy trial; and
as such provides in this case the objective standard of reasonableness under prevailing
professional norms by which to guide an assessment of trial counsel’s conduct, the
failure of the State court to apply that legal principle to Rule 28 is contrary to and/or
involves an unreasonable application of clearly established federal law. 28 U.S.C., §
2254(d)(1); Williams v. Taylor 529 U.S. @ 407 (State court decision involves an
unreasonable application of Supreme Court if it unreasonably refused to extend legal
principle to a new context where it should apply.). And, as in this case, the failure to do
so is so lacking in justification that there was an error well understood and
comprehended n existing law beyond any possibility of fair-minded disagreement.
Harrison v. Richter, 562 U.S. 86 @ 103 (2011).

26

“the overarching duty of trial counsel to advocate the defendant’s cause” noted in
Strickland (466 U.S. @ 688) is “limited to legitimate lawful conduct....he must observe....
the statute law.” Such is Rule 28.
Because trial counsel’s conduct in obtaining this delay violated the rule of law
under Rule 28; and that conduct resulted in the denial of Petitioner’s constitutional right
to speedy trial, it cannot be deemed reasonable - as reasonable and competent
attorney would not violate the law. Strickland, supra.; Nix, supra. And because that
conduct violated the law, there is no - nor “could be” any - reasonable argument or
theory that satisfies Strickland’s “highly deferential” standard accorded the “wide range
of reasonable professional judgment.” 466 U.S. @ 687-94; Harrison, supra.
And with regard to trial counsel’s acquiescence in the State’s obtaining and the
10/2/14 to 12/4/14 grant of delay that was not permitted under Rule 28.3(d), (Add. @
D10-11), this Court should as well not accord any deference to trial counsel’s conduct.
First, because the delay obtained by the State for this reason violates the Rule (Id.);
then, because the record is silent as to an essential element of fact: who in fact
obtained the delay (Id.); and on two (2) occasions of opportunity to correct this defect
(Id.) no effort was made to do so; and finally, the failure to make what would have been
a meritorious motion to dismiss for violation of speedy trial based on this excluded
period. Walker v. State, supra.; Clark v. State, supra.
Because the State court relied on a silent record to support its decision (Cf:
Carnley v. Cochran, 369 U.S. @ 516), Petitioner submits that neither presumption of
correctness under Title 28, U.S.C., § 2254(e)(1) or deference under § 2254(d) should
attach to that decision. And in view of the ample opportunities to correct this defect especially when brought to the trial court and defense counsel’s attention by pro se
28

Motion for Post Conviction Relief (Cf: Rule 28.3) Petitioner submits that fair minded
jurists would not disagree that there is no argument or theory to support deference.
Harrison, supra.
IV. Failure to accord Petitioner fair and adequate review on the merits.
The order of the District Court to dismiss and deny the application for federal
habeas relief in this case (Add. @ B1-2) entered on October 30, 2020, adopted in its
entirety the Findings and Recommendations of the Magistrate (Add. @ B4-11). Those
findings rested entirely on the decision of the Arkansas Supreme Court that denied
Petitioner’s Rule 37 Petition for Post Conviction Relief that raised the same claims of
constitutional violation as hereon. (Add. @ C1-7) The State court concluded that
because there was no speedy trial violation trial counsel was not ineffective for failing to
file what would otherwise have been a meritless motion to dismiss for violating speedy
trial - thus reducing Petitioner’s claim to trial error and avoiding the constitutional issues
presented. Id. The District Court concluded that Petitioner did not raise a constitutional
issue on which federal relief could be granted. (Add. @ B1).
Petitioner argues that he has heron demonstrated as he did to the courts below that the State court decision is both a factual and legally erroneous exercise to avoid
consideration of the constitutional presented by Petitioner.
And, Petitioner contends, because - to date - review of the claims raised in his
federal habeas petition has been based on what has been demonstrated to be an
arbitrary and summary treatment of the constitutional issues presented therein that is
not only contrary to and/or involves an unreasonable application of clearly established
federal law; but as well, is based on an unreasonable determination of the facts in light

29

of the evidence before that court, there has been no independent and fair review on the
merits of his claims hereon.
Petitioner submits that this lack of adequate review is shown by the failure of the
federal courts below to independently test the efficacy and validity of the constitutional
claims

presented

in

his

habeas

petition

including:

The

correctness

of the

“reasonableness” standard employed by the State court to assess the effectiveness of
trial counsel’s conduct under Strickland, supra.; considering the novel claim of
application of Strickland’s “prevailing professional norms” principle to the State rule of
criminal procedure governing speedy trial; or to determine if the decision of the State
court rested on independent and adequate State grounds.
Section 2254(d) requires federal courts to extend deference to the factual
findings of the State court; but as this Court noted in Miller-El v. Cockrell, supra, 537 U.
S. @ 340, deference does not imply abandonment or abdication of review. And as this
Court has also established, the federal court must ascertain for themselves if a
petitioner is in custody pursuant to a State court judgment that rests on independent
and adequate State grounds. Coleman v. Thompson, supra., 501 U.S. @ 736.
In this case, although the Court of Appeals below purported to “carefully review
the original file of the district court” (Add. @ A3), where that review was founded in the
District Court’s reliance on the Magistrate’s findings (Add. @ B-1), which adopted the
obviously erroneous conclusions of the State court (Add @ B-1); such a review by the
Court of Appeals - in this context - could only have been abbreviated and truncated, and
not one on the merits, as to have missed the efficacy of the claims as presented hereon
that were before that Court.

30

i.

A. Failure to receive a review on the merits by the court of appeals
because of circumstances beyond petitioner’s control.
Petitioner here contends that in addition he was denied full and adequate review
on the merits of his claims herein on Petition For Re-Hearing and Re-Hearing en banc
by the Court of Appeals for reason of the co-occurrence of several factors beyond his
control that effected to deny him opportunity for meaningful review of his habeas claims;
and which may well implicate notice and due process. Those factors include: The
mandatory jurisdictional limitations of Rule 40, FRAP; The Covid-19 pandemic; its
impact on not only access to legal services at Petitioner’s ADC unit of confinement, but
too, postal services; and as well, other governmental administrative influences and
intrusions on postal services that affected to delay those services.
On receipt of denial by that Court of his initial application for certificate of
appealability and motion to proceed in forma pauperis (Add. @ A3), the Clerk of that
Court as well informed Petitioner by letter therewith of the mandatory time frames
imposed by Rule 40, FRCP in which to Petition for Re-Hearing, includes the strictly
enforced fourteen (14) days period for filing with no grace period for mailing. Add. @
A2. Petitioner had already experienced delay in communication through the postal
service with the 8th Circuit that had resulted in his filing multiple motions for leave to
proceed in forma pauperis (On 12/17/2020 and again on 01/07/2000) because he did
not receive notice of receipt of the first. Add. @ A4-5. A delay Petitioner attributes to
both the pandemic as well as other noted governmental intrusions on postal services.
Too, Petitioner was presented with the fact that the pandemic had also adversely
restricted access to his ADC unit legal services, including typing and copying.

31

